Washington, D.C. 20530

April 7, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re: Lavellous Purcell v. United States of America,
S.Ct. No. 20-7482
Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on March 12, 2021. Although
the government waived its right to file a response, the Court has requested that a response be
filed. The government’s response is now due on April 16, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including May 17, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-7482
PURCELL, LAVELLOUS
USA

YUANCHUNG LEE
FEDERAL DEFENDERS OF NEW YORK, INC.
52 DUANE STREET
10TH FLOOR
NEW YORK, NY 10007
212-417-8742
YUANCHUNG_LEE@FD.ORG

